CERTIFICATE OF SERVICE
No. TBD
. Michael Brown
Petitioner(s)
v.
U.S. Department of Labor
Respondent(s)

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Michael
Brown Petition for Writ of Certiorari, by mailing one (1) true and correct copy of the same by
USPS Priority Mail, postage prepaid for delivery to the following addresses:
Jeffrey B. Wall
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov
Counsel for U.S. Department ofLabor

October 1,2020
SCP Tracking: Brown-P.O. Box 3343-Cover White

